so-Tseg

s

No.

IN THE

Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

DEC 2 9 2020
OFFICE OF THE CLERK

Kamme O

— PETITIONER

(Your Name)
vs.
Texas A&M University
Texas A&M University System

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kamme O
(Your Name)

3503 Winding Road
(Address)

Hearne, Texas 77859
(City, State, Zip Code)

979-575-1091
(Phone Number)

QUESTION(S) PRESENTED

1.) Rights of a 23.5 year STATE employee when denied legal representation?
A. Case too complicated for a lawyer to make a profit.
B. Approved for Legal Aid - but there is no legal aid for "fee generating" cases.
C. Denied requests for legal representation by the Court.
D. Judge's Alma mater is the Defendant.
E. Defendant has public funded representation by the Texas Attorney General.
F. Plaintiff is a high school graduate.
G. Plaintiff abused by employer following being depicted as a "Parking Nazi" in
the University newspaper.
F. Plaintiff continued to be abused by employer, evaluated as "being female",
even after changing careers to escape bullying at the 1st job.
G. Plaintiff continued to be abused by employer during the 3rd career.
H. Defendant backdated 1st Report of injury, then suspended the Plaintiff for
months, while making multiple attempts to force FMLA.
I. Defendant verbally assaulted the Plaintiff, recorded & listened to it - then
lied about who yelled in their EEOC Response, to the Texas Workforce Commision
the STXCOURT and the 5th CIRCUIT Court.
J. Defendant terminated the Plaintiff after she submitted a complaint that the male
inspectors were 3 to 5 years behind on the eyewash shower inspections. (Including
photos and database) And after hearing the 11/20/2015 audio.
K. Defendant mentored, promoted and protected younger male - TXSFMO failing
to address the FALSE dates of the TAMU EHS Fire Safety inspections.
L. VP of Finance over both EHS and Human Resources.
M. If the STXCOURT would have listened to the meeting audio of 11/20/2015 the
Court would have known the Plaintiff is truthful; it was the Defendants that were
"insubordinate" and hostile towards the Plaintiff.
2.) Are employment rights for everyone or just lawyers?

LIST OF PARTIES

^ All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

4.17-cv-3877 STXCOURT, Kamme O vs TAMU, TAMUS
18-20093 Fifth Circuit
20-20183 Fifth Circuit
4.19-cv-l 176 STXCOURT, Kamme O vs Texas Dept of Insurance

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
^ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; °r,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

09/23/2020

[ ] No petition for rehearing was timely filed in my case.
^ A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
09/15/2020__________ , and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. -__A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

STATEMENT OF THE CASE

1.) The Texas Attorney General, defending Texas A&M University and Texas A&M University
System lied to the Southern District Court of Houston Texas and the 5th Circuit Court of
Appeals, New Orleans, by repeating the lies that the Defendants originally claimed about
the Plaintiff in their 2015 Equal Employment Opportunity Commission response and to
the Texas Workforce Commission Unemployment Office. The Plaintiff is innocent of the
accusations by the Defendants.
2.) The Defendant is represented by STATE funded Texas Attorney General's Office, while the
23.5 year Texas A&M University employee, with a high school education, bullied &
harassed for decades by the Defendant is denied legal representation by a Judge who's
alma mater is the Defendant.
3.) To the Court, the Plaintiff submitted copies of complaints, her 2015 calendar, the
11/20/2015 audio and transcript, an Affidavit from witness BABETTE PERKINS, as well as
the 1996 TAMU evaluation of the Plaintiff for "being female" and a copy of the 1994
Battalion Cartoon of the Plaintiff at work, as a "Parking Nazi".
4.) Texas A&M University's EEOC Response 31C-2015-01426 states that the 11/20/2015
meeting between the Plaintiff and her recent supervisor SWATI KALE had been recorded.
And that the TAMU investigation team listened to the audio 01/04/2016. That means
TAMU knew the Plaintiff was verbally attacked by her supervisor, but claim the Plaintiff
was "insubordinate" and "yelled". There is no factual evidence that the Plaintiff ever
yelled at anyone, ever.

Kamme O vs Texas A&M University and System

5.) Plaintiff's employment was terminated for "work performance" 01/29/2016, 47 workdays
after the Plaintiff submitted photos & a database of the TAMU eyewash showers being 3
to 5 years behind, the male inspectors, also supervised by SWATI KALE, were not
suspended from being able to request vacation for "being behind on inspections".
6.) One of the younger males (ADAM CHAVARRIA) preferred and mentored by the employee
that shunned the Plaintiff for over a decade (JAMES B. RAINER) inspected buildings dated
12/13/2013 - that were then assigned to the Plaintiff 2014, during her "300 days" of the
2015 EEOC investigation - The database shows the buildings as "DEMOLISHED 2012."
7.) Plaintiff was Certified in Pyrotechnics and Flame Effects 2005-2016 and was denied any
opportunity to issue a TAMU burn permit. 2015-2016 the younger male (ADAM
CHAVARRIA) was advertised on the EHS website and the contact for a burn permit - He
did not have those certifications.
8.) The Plaintiff submitted the TAMU Building inventory database and copies of the 2013 Fire
Safety inspections to the Texas State Fire Marshal's office - and got no response from
TXSFMO about the false inspection dates.
9.) March 2015, Plaintiffs 1st report of injury was backdated by the Defendants to October
2014 - (an iPad inspection application with 26.5' of scrolling from top to bottom injured
the Plaintiffs neck.)

10.)

Two days after the Plaintiff emailed the TAMU System investigator about the

status of the injury report, the Plaintiff was suspended without warning or clarification,
from being able to request vacation leave 07/17/2015 until 11/13/2015. Following this

Kamme O vs Texas A&M University and System

the Defendant repeatedly requested the Plaintiff sign FMLA documents even after the
Plaintiff refused.

11.)

The 2015 TAMU HR email and the FMLA denial document was submitted to the
STXCOURT. The Defendants were creating the denial document and the Plaintiff had not
requested or signed any FMLA document. And her access to vacation was suspended.

12.)

Defendants bullied and harassed the Plaintiff annually 2007-2015 by claiming she

was "late to work" - while all biweekly timesheets, approved by the same supervisors
were TIMELY and there was no actual time clock.

13.)

Defendants bullied and harassed the Plaintiff during monthly witnessed meetings
2015-2016 of "LEAVE AT FIVE" - while the Plaintiff's TAMU SSO listed her work hours as
8:30am-5:30pm. Plaintiff was paid for 8:30-5:30 while being written up for "not leaving

at 5:00".

14.)

During all this the Plaintiff's department Environmental Health & Safety hosted
MANDITORY Human Resources trainings for employees on "Discrimination in the

Workplace", "Styles of Communication"... Basically, the classes taught the opposite of
what was happening. SWATI KALE micromanaged the Plaintiff, scheduling her out on
campus during one of the mandatory meetings.

15.)

Defendants restructured TAMU Environmental Health & Safety to hide/protect

JAMES B. RAINER. Defendants also left the Plaintiffs evaluation signature pages out of
the 2015 EEOC response that have JAMES B. RAINER's signature.

16.)

Defendants changed the Plaintiffs work position from "Fire Safety inspector III"

to be "Occupational Safety Inspector III" on 02/10/2014, days after the Plaintiff first met

Kamme O vs Texas A&M University and System

with Human Resources about the years of discrimination and how JAMES B. RAINER
refused to work with or mentor her. (1999-2015) (The evidence was sent to STXCOURT).

17.)

The Plaintiff was informed 560 days later, of the position title change from FIRE to
OCCUPATIONAL 10/21/2015. Then the Plaintiffs position title reverted to "FIRE SAFETY
INSPECTOR III" on September 1, 2, 3, 2015. And then back again to "Occupational".

18.)

When the Plaintiff made an OPEN RECORDS request 2015 for her employee file,

TAMU communicated via emails & letterhead to the TXOAG referring to the Plaintiff as
"Mr. O". (Plaintiffs photo was on her email header.) The Texas Bar also replied to the
Plaintiff as "Mr. 0" And the 5th Circuit Court appears to default "Mr." also.

19.)

Plaintiff believes the "male/female" theme was created by the Defendants to
steer away from the Battalion "Parking Nazi" cartoon, because she never had any
male/female issue. The management that wrote her up for "being female" are who have

the issue. The men the Plaintiff worked with went to the Defendants on behalf of the
Plaintiff about how she was being bullied, but it turns out the coworkers were "preaching
to the choir."
20.)

For the Plaintiff 1992-2016 there was NO ONE to go to for help protecting legal
rights when discriminated and bullied at Texas A&M University and changing careers did
not help either: Parking Officer, Carpenter, Fire Inspector.

21.)

Plaintiff believes the Defendant has behaved with malice with intentions of driving

the Plaintiff to become "POSTAL", after she met with HR in 2014 and discussed
discrimination and hostile work environment. December 2015, TAMU even created 2
bogus "anonymous" complaints directed toward "afraid she will go postal".

Kamme O vs Texas A&M University and System

22.)

The Defendants' policies create a false sense of protection for employees, while
not being LAW, were not adhered to by the Defendant. The 2015 "15 workdays"

investigation lasted 96 days. And then the policy was changed to "30 workdays"
immediately following.
23.)

Every written complaint submitted to the Defendant 2015-2016 was returned by

the TAMU VP of Finance (Dr. Jerry Strawser) as "no valid evidence" so that OPEN RECORDS
could DENY any requests of the complaints - because of a GOVT CODE, as pointed out in
a response from TXOAG to Open Records 2017.
24.)

TAMU VP of Finance (Dr. Jerry Strawser) had a conflict of interest 2015-2016,
because he was over the EHS employees the Plaintiff submitted complaints about AND
Human Resources. After the Plaintiff was terminated, TAMU System Regents voted to
restructure & retitle Human Resources, effective August 2016. ...but TXOAG claims TAMU

and TAMUS are not "co-employers".
25.)

Plaintiffs 2016 TWC Unemployment file is stamped "COURTESY"-the Defendants
lied to the Texas Workforce Commission about the Plaintiff, but it appears the investigator
believed the Plaintiff? (Copy of TWC file sent to STXCOURT)

26.)

Plaintiff has no legal experience prior to having to explain her employment by

Texas A&M University 1992-2016, to the Court 2017-2020. Legal process is a large amount
of unfamiliar vocabulary and process.
27.)

Plaintiff was released by her lawyer via email January 2017. Then applied for Legal

Aid and was informed she qualified but that they "do not help with fee generating cases."

Kamme O vs Texas A&M University and System

28.)

STXCOURT denied Plaintiffs many requests for legal representation. Plaintiff met

the 3 conditions, but the court denied the case is "complicated".

29.)

After 216 days of no communication from the STXCOURT, the Plaintiff wrote the
Court 11/13/2018 and asked if her due process was being withheld?

30.)

The Magistrate's Recommendation 11/30/2018 stated in part, if the Plaintiff
wanted to hold the individuals responsible, Plaintiff could file an FMLA case against the
26 individuals named by the Plaintiff but that employment law only holds the employer
responsible.

31.)

Then 12/14/2018 TXOAG Motioned Judge Sim Lake to complain of the Magistrate.

32.)

TAMU Former Student Judge Sim Lake 02/09/2019 ORDERED the Plaintiff's 2nd

Amended Complaint be the OPERATIVE PLEADING and no other amendments would be
allowed.
33.)

TXOAG's deposed the Plaintiff for approximately 4 hours. The Plaintiff was
repeatedly asked if she recognized her own documents and bullied as to "WHAT RELIGION
ARE YOU?"

34.)

Plaintiff has been subjected to years of discrimination, bullying, hostile work

environment(s) - only realizing that Human Resources was behind it, when she gained
access to the 2015 dates of TAMU HR investigation listed in the EEOC response, after
contacting her GOVT Representatives late 2016 for assistance. The interview dates of
TAMU EHS employees coincide with the retaliations towards the Plaintiff. And there are
repetitive lies about the Plaintiff by the Defendant.

Kamme O vs Texas A&M University and System

From the vantage point of the Plaintiff, Human Resources knows better than

35.)

anyone how to bully, harass, discriminate, shun, and withhold opportunities, and is
equipped to do so by proxy, by using employees to carry out the illegal behaviors, since
employees are not held accountable by employment law.
Gaslighting is one of the favorites - basically using the company policies, by NOT

36.)

adhering to them, the employee believes the policy is law, gets upset and expects Human
Resources to do something about it. And then the manager that bullied, discriminated or
whatever is promoted instead of terminated.
37.)

Defendants attempted to gaslight the Plaintiff so much between 1994-2016, she
hardly flinches anymore, but the idea of having to learn how to be a lawyer AND
explain/relive 23.5 years of

is exceedingly difficult.

38.)

"90 days to sue", no one can become a lawyer in 90 days.

39.)

Texas Attorney General's Office representation to STXCOURT "Motioned to
Dismiss for Failure to State a Claim" = "We aren't saying we didn't do it; we're saying she
can't prove it."

40.)

Texas Attorney General's Office representation to 5th Circuit Court of Appeals,
"Motioned to Dismiss as Frivolous" and 5th Circuit GRANTED it.

41.)

What rights do employees have if a lawyer cannot make a profit and the employee

cannot effectively represent herself?

Kamme O vs Texas A&M University and System

Reasons for Granting the Petition

1.) It is in the best interest of the public that employees are treated honestly and fairly
by their employers and the Court System.
2.) Civil Rights are meritorious.
3.) Texas A&M University ought to be held accountable for their abuse of power.
4.) Texas A&M University and Texas A&M University System should be legally
considered co-employers.
5.) Texas A&M University and System have a responsibility to SET THE EXAMPLE - not
just advertise policies.
6.) Human Resources enabled discrimination by proxy - Policies are a smoke screen.
7.) Integrity matters.

Kamme O vs Texas A&M University and System

CONCLUSION

The petition for a writ of certiorari should be granted.

Resped

Date:

December 29, 2020

